Supreme Court, U.S.
FILED

No.

--5987

OCT 1 2 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,
v.

PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE
Respondent
On Petition for Writ of Certiorari to the
The Supreme Court of Virginia
Record No. 201105
PETITION FOR WRIT OF CERTIORARI

KATHLEEN C. HAMPTON, Pro Se
P.O. BOX 154
BLUEMONT, VIRGINIA 20135
(540) 554-2042
KHAMPTON47@YAHOO.COM

QUESTIONS PRESENTED
Whether the Supreme Court of Virginia’s Opinion that “there is no reversible
error in the judgment complained of’ in the Loudoun County Circuit Court’s Order
sustaining Demurrer with, prejudice to Hampton’s Counterclaims & Sanctions, in an
unlawful detainer action, properly addressed, in their de novo review, the
constitutionality of the law, either under Virginia’s Constitution or the Constitution
of the United States, involving the life and liberty of Petitioner, pertaining to the
application of Res Judicata or sustaining demurrers to non-judicial foreclosures; or
whether demurrers violate citizens’ Constitutional Rights to due process, and,
further, the constitutionality of non-judicial foreclosures.

PARTIES TO THE PROCEEDING
PETITIONER, KATHLEEN C. HAMPTON, an individual natural person, citizen of
the United States and the Commonwealth of Virginia, is acting pro se, is not an
attorney and has had very minimal contact with the legal system prior to this
action. Ms. Hampton was plaintiff in the Loudoun County Circuit Court and the
General District Court and Appellant in the Supreme Court of Virginia.

RESPONDENT,

PROF-2013-S3

LEGAL TITLE

TRUST,

BY U.S.

BANK

NATIONAL ASSOCIATION, AS LEGAL TITLE TRUSTEE, was defendant in the
Loudoun County Circuit Court and General District Court and Appellee in the
Supreme Court of Virginia; and was represented by FAY SERVICING, LLC, AS
SERVICING AGENT AND ATTORNEY-IN-FACT FOR PROF-2013-S3 LEGAL
TITLE TRUST, BY U.S. BANK NATIONAL ASSOCIATION, AS LEGAL TITLE
TRUSTEE; and SAMUEL I. WHITE, P.C., AS ORIGINAL AND SUBSTITUTE
TRUSTEE, and COUNSEL for PROF-2013-S3 LEGAL TITLE TRUST, BY U.S.
BANK NATIONAL ASSOCIATION, AS LEGAL TITLE TRUSTEE throughout the
proceedings below in the Loudoun County Circuit Court and General District Court
and as COUNSEL for Appellee in the Supreme Court of Virginia.
CORPORATE DISCLOSURE STATEMENT
Pursuant to U.S. Supreme Court Rule 29.6, Petitioner Kathleen C. Hampton is an
individual with no corporate affiliation.

ii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11

CORPORATE DISCLOSURE STATEMENT

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

Vll

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

QUESTIONS PRESENTED

4

STATEMENT OF THE CASE

5

STATEMENT OF THE FACTS

7

CONSTITUTIONAL AND STATUTORY PROVISIONS DETAILED

15

AUTHORITIES AND ARGUMENTS

27

REASONS FOR GRANTING THE PETITION

34

CONCLUSION

40
INDEX TO APPENDICES
App. Page

Appendix A Circuit Court of Loudoun County Final Order granting
DemurrerXo PROF-2013-S3 Legal Title Trust, by
US Bank National Association, as Legal Title Trustee,
and dismissed with prejudice to Hampton’s Counterclaims and
Sanctions, Civil No. 118605-00, dated February 7, 2020

1

Appendix B Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201105, dated March 23, 2021

10

iii

App. Page
Appendix C Supreme Court of Virginia Denial of the Petition for Rehearing,
Record No. 201105, dated May 14, 2021

11

Appendix D Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201105, dated December 11, 2020

12

From the Companion Petition:
Appendix E Circuit Court of Loudoun County Final Order
granting Summary Judgment and possession to the
Property to PROF-2013-S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful
detainer action, Civil No. 118604-00, dated February 7, 2020

13

Appendix F Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201103, dated March 23, 2021

22

Appendix G Supreme Court of Virginia Denial oi the Petition for Rehearing,
Record No. 201103, dated May 14, 2021

23

Appendix H Supreme Court of Virginia Denial oi Appellee’s Motion to
Dismiss, Record No. 201103, dated December 11, 2020

24

Other Orders from Proceedings in the Circuit Court:
Appendix I Circuit Court of Loudoun County Order dated February 7,
2020, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum
ofLaw, filed December 20, 2019

25

Appendix J Circuit Court of Loudoun County Prefer dated December 19,
2019, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial, filed November 18, 2019

27

Appendix K Circuit Court of Loudoun County Nunc Pro Tunc Order dated
December 19, 2019, and Order dated November 11, 2019,
denying Hampton’s Motion for Reconsideration and
Supporting Memorandum ofLaw, filed October 25, 2019, and
Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019

29

iv

App. Page
Appendix L Circuit Court of Loudoun County Order dated October 4, 2019,
denying Hampton’s Motion to Dismiss, filed September 18, 2019

33

Appendix M Constitutional and Statutory Provisions Involved

35

Petitioner’s filings to all Orders above'
In the Supreme Court of Virginia-

39
40

Appendix N Appellant’s Petition for Rehearing filed in the Supreme Court
of Virginia, Record No. 201105, electronically April 6, 2021
Appendix O Appellant’s Notes of Oral Argument before the Supreme Court
of Virginia, as presented to Justices Lemon, Powell & Chafin,
Record No. 201105, telephonically February 16, 2021

52

Appendix P Appellant’s Petition for Appeal filed in the Supreme Court
of Virginia, Record No. 201105, posted September 8, 2020

59

41

Appendix Q Appellant’s Response to Motion to Dismiss Petition for Appeal
filed in the Supreme Court of Virginia, Record No. 201105,
electronically October 10, 2020

103

Petitioner’s filings to all Orders above •
In the Circuit Court of Loudoun County Virginia-

109
110

Appendix R Hampton’s Objections to the Final Order on Demurrer
to Counterclaims & Sanctions Action, Civil No. 118605-00,
filed February 21, 2020 (without referenced Petitions in
Supreme Court of Virginia Record No. 180842)
Appendix S Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial Supporting Memorandum ofLaw
(Civil No. 118605-00 & Companion Civil No. 118604-00)
filed December 20, 2019 (without Exhibits 24[+24a-24d] re
Cease & Desist and Exhibit 38 re Bloomberg Audit)
Appendix T Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial {Civil No. 118605-00 & Companion
Civil No. 118604-00) filed November 18, 2019 (without
excerpt transcript on rulings from October 18, 2019 hearing)

111

122

138

App. Page
Appendix U Hampton’s Motion for Reconsideration ofFurther Support
to Memorandum ofLawiCivil No. 118605*00 & Companion
Civil No. 118604*00) filed November 1, 2019 (without the
referenced 209 pages of evidence/exhibits identified therein
from related Civil Case No. 98163*00)
Appendix V Hampton’s Motion for Reconsideration and Supporting
Memorandum ofLaw{Civil No. 118605*00 & Companion
Civil No. 118604*00) filed October 25, 2019 (with hearing
transcript of January 3, 2017, Supreme Court of Virginia Record
Nos. 170427 & 180842, & Hampton’s Motion for Reconsideration
and Memorandum in Support ofMotion for Reconsideration,
filed January 10, 2017, in related Civil Case No. 98163*00)
Appendix W Hampton’s Motion to Dismiss (Civil No. 118605*00 &
Companion Civil No. 118604*00) filed September 18, 2019
(with #6 Transcript of Hearing of October 4, 2019, together
with List of Exhibits/Documents given to Court and the 1st
& 2nd noted documents thereon: Notes read at GDC 11*14*18
hearing & Hampton’s related Reply Brief to SCOTUS 9*25*19
[No. 18*9127])

vi

146

151
175
224

234
244
249
261
262
264

TABLE OF AUTHORITIES

Ashcroft v. Iqbal 556 U.S. 662, 129 S.Ct. 1937, 1949 (2009)

Page
23-24, 33

Bell Atlantic Corp. v. Twombly.; 550 U.S. 544, 570 (2007)

24, 33

Caperton v. A.T. Massey Coal Co., 285 Va. 537, 548 (2013)

28

Carpenter v. Longan, 16 Wall. 271, 83 U.S. 271, 274,
21 L.Ed. 313 (1872)

9, 36, 39

Cleveland Board ofEducation v. Loiidermill, 470 U.S. 532,
538-541 (1985)

20

DAmbrosio v. Wolf, 295 Va. 48, 56 (2018)

28

Edwards v. City of Goldsboro, 178 F.3d 231, 243-44 (4th Cir. 1999)

24

Flora Daun Fowler\ Appellant v. Maryland State Board ofLaw
Examiners, No. 77-801, 434 U.S. 1043, 98 S.Ct. 844,
54 L.Ed2d 793 (1977)

25

Funny Guy.; LLC v. Lecego, LLC, 293 Va. 135, 142 (2017)

28

Green v. McElroy, 360 U.S. 474, 79 S.Ct. 1400 (1959)

25

Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964)

25, 32*33, 35

Hurtado v. California, 110 U.S. 516, 532 (1884)

18

Maty v. Grasselli Chemical Co., 303 U.S. 197 (1938)

33

N.L.R.B. v. Burns, 207 F.2d 434 (8th Cir. 1953)

24

Niemotko v. Maryland, 340 U.S. 268, 271 (1951)

15

Parrish v. Federal National Mortgage Association, 292 Va. 44,
787 S.E.2d 116 (2016)

15

Patterson v. Saunders, 194 Va. 607, 612 (1953)

28

Poe v. Ullman, 367 U.S. 497, 540, 541 (1961)

18

Swift and Co. v. United States, 308 F.2d 849 (7th Cir. 1962)

32

Time, Inc. v. Pape, 402 U.S. 279, 284 (1971)

15

vii

TABLE OF AUTHORITIES
(continued)
Page
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152,
207 S.E.2d 837, 840 (1974)

36

Wigod v. Wells Fargo Bank, 673 F.3d 54 (7th Cir. 2012)

17

CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment V
U.S. Const. Amendment VTI
U.S. Const. Amendment XIV §1
Va. Const., Article I, §1
Va. Const., Article I, §11

15,
19
22,
22,
22,

STATUTES
28 U.S.C. § 1257(a)
28 U.S.C. §210l(c)
28 U.S.C. §2403(b)
Va. Code §6.2-1614
Va. Code §6.2-1629
Va. Code §55-59(9)

25
25, 34
25
25

4
4
4
8
8

9

OTHER
Code ofPretrial Conduct, page 2
Friendly, “Some Kind of Hearing,” 123 U.Pa.L.Rev. 1267,
1279-95 (1975)
Mission to Dismiss-A Dismissal ofRule 12(b)(6) and
the Retirement of Twombly/Iqbal, Cardozo Law Review,
Volume 10, Issue 1 (2018)
The U.S. National Archives, “The Bill of Rights Fifth Amendment - Rights of Persons”
The Making ofModern Law'- US. Supreme Court
Records and Briefs, 1832-1978
Wilham & Mary Bill of Rights Journal [Val. 22-1221 2014]
pp. 1245-1246

viii

29
20

29
15-19
24
23

PETITION FOR WRIT OF CERTIORARI
Petitioner, Kathleen C. Hampton, pro se, respectfully petitions for a Writ of
Certiorari to review the Opinion of the Supreme Court of Virginia that “there is no
reversible error in the judgment complained of,” on the Loudoun County Circuit
Court’s Order granting Demurrer and dismissing with prejudice Hampton’s
Counterclaims & Sanctions in an unlawful detainer action, thereby denying
Petitioner’s Constitutional Rights to Trial by Jury and her Constitutional Rights to
Due Process and the Protections of the Law.
OPINIONS BELOW
Circuit Court of Loudoun County Final Order granting Demurrer to PROF-2013-S3
Legal Title Trust, by US Bank National Association, as Legal Title Trustee, and
dismissed with prejudice to Hampton’s Counterclaims and Sanctions, Civil No.
118605-00, dated February 7, 2020. [unpublished] (App. A)
Supreme Court of Virginia Opinion “there is no reversible error in the judgment
complained of’ and Refused the Petition for Appeal, Record No. 201105, dated
March 23, 2021. [unpublished] (App. B)
Supreme Court of Virginia Denial of the Petition for Rehearing, Record No. 201105
dated May 14, 2021. [unpublished] (App. C)
Supreme Court of Virginia Denial of Appellee’s Motion to Dismiss, Record No.
201105, dated December 11, 2020. [unpublished] (App. D)
In Primary Unlawful Detainer CaseCircuit Court of Loudoun County Final Order granting Summary Judgment and
possession to the Property to PROF-2013-S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful detainer action, Civil
No. 118604-00, dated February 7, 2020. [unpublished] (App. E)
Supreme Court of Virginia Opinion “there is no reversible error in the judgment
complained of’ and Refused the Petition for Appeal, Record No. 201103, dated
March 23, 2021. [unpublished] (App. F)

1

Supreme Court of Virginia Denial of the Petition for Rehearing, Record No. 201103,
dated May 14, 2021. [unpublished] (App. G)
Supreme Court of Virginia Denial of Appellee’s Motion to Dismiss, Record No.
201103, dated December 11, 2020. [unpublished] (App. H)
Further in the Circuit CourtCircuit Court of Loudoun County Order dated February 7, 2020, denying Hampton’s
Motion for Rehearing or in the Alternative Motion for a Mistrial Supporting
Memorandum ofLaw, filed December 20, 2019. [unpublished] (App. I)
Circuit Court of Loudoun County Order dated December 19, 2019, denying
Hampton’s Motion for Rehearing or in the Alternative Motion for a Mistrial, filed
November 18, 2019. [unpublished] (App. J)
Circuit Court of Loudoun County Order dated November 11, 2019, denying
Hampton’s Motion for Reconsideration and Supporting Memorandum ofLaw, filed
October 25, 2019, and Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019. [unpublished] (App. K)
Circuit Court of Loudoun County Order dated October 4, 2019, denying Hampton’s
Motion to Dismiss, filed September 18, 2019. [unpublished] (App. L)
Also as Noted and Referenced herein in Hampton’s Prior Case before SCOTUS,
which this Court can take Judicial Notice of
Supreme Court of the United States, Kathleen C. Hampton, Petitioner v. PROF2013-S3 Legal Title Trust, By US. Bank National Association, as Legal Title
Trustee, et al., on Petition for Writ of Certiorari, denied October 7, 2019, Record No.
18-9127. [published 140 S.Ct. 68 (2019)]
(Reply Brief to SCOTUS 9-25-19 [No. 18-9127] has been included in Appendix W
App. 264-270, as it was submitted to the circuit court as an exhibit to Hampton’s
Motion to Dismiss)
On review ofSupreme Court of Virginia (Record No. 180842) Denial of the Petition for Rehearing
dated February 1, 2019 [unpublished]
Supreme Court of Virginia (Record No. 180842) Opinion there is no reversible error
in the judgment complained of and Refused the Petition for Appeal dated November
9, 2018 [unpublished]

2

On review of
Circuit Court of Loudoun County Amended Final Order dated March 30,
2018, adding PROF-2013-S3 Legal Title Trust, by US Bank National
Association, as Legal Title Trustee as a separate party defendant to the relief
awarded in the Court’s previously-entered January 3, 2017, Order
[unpublished]
Still further from the Supreme Court of Virginia’s decision of
Supreme Court of Virginia (Record No. 170427) Denial of the Petition for Rehearing
dated November 21, 2017 [unpublished]
Supreme Court of Virginia (Record No. 170427) Dismissal without Prejudice,
finding that the order appealed from is not a final, appealable order as it is not final
with regard to all the parties in the case, namely PROF-2013-S3 Legal Title Trust,
by US Bank National Association dated August 14, 2017 [unpublished]
On review of
Circuit Court of Loudoun County Final Orders dated January 3, 2017,
sustaining with prejudice the Demurrers and Plea in Bar to Plaintiffs Second
Amended Complaint [unpublished] (hearing transcript is part of Appendix V
herein)
Circuit Court of Loudoun County Order dated January 11, 2017, denying
Plaintiffs Motion for Reconsideration [unpublished] (Motions for
Reconsideration are part of Appendix V herein, App. 224-243)
Circuit Court of Loudoun County Order dated August 3, 2016, sustaining the
Demurrers as to all counts and permitting Plaintiff to file Second Amended
Complaint to combine her case with that of the US District Court case
[unpublished]
Circuit Court of Loudoun County Order dated July 1, 2016, denying
Plaintiffs Application for Entry ofDefault and Default Judgment against the
main defendant PROF-2013-S3 Legal Title Trust [unpublished]
US District Court for the Eastern District of Virginia (No. L15-cv-1624-LMB-MSN)
Order dated May 18, 2016, Dismissing without Prejudice pursuant to FRCP 41(a)(1)
[unpublished]
STATEMENT OF JURISDICTION
The judgment of The Supreme Court of Virginia on a Petition for Rehearing
was entered on May 14, 2021. (App. C)

3

The judgment of The Supreme Court of Virginia on the Petition for Appeal
was entered on March 23, 2021. (App. B)
This Court’s jurisdiction is invoked under 28 U.S.C. §1257(a) and, under
§210l(c), this petition was timely filed within one hundred fifty (150) days after the
judgment on the Petition for Rehearing, dated May 14, 2021, pursuant to Supreme
Court Rules 13.1 and 30.1.
Pursuant to U.S. Supreme Court Rules 14.1(e)(v) and 29.4(c), this petition
draws into question the constitutionality of the process not the constitutionality of a
state statute unless the statutes define the process. Rule 29.4(c) does not appear to
apply. However, as 28 U.S.C. §2403(b) may apply, a copy of the petition has been
served on the State Attorney General.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Pertinent constitutional and statutory provisions are set forth in the
Appendix to this petition (App. M).
QUESTIONS PRESENTED
Whether the Supreme Court of Virginia’s Opinion that “there is no reversible
error in the judgment complained of’ in the Loudoun County Circuit Court’s Order
sustaining Demurrer with prejudice to Hampton’s Counterclaims & Sanctions, in an
unlawful detainer action, properly addressed, in their de novo review, the
constitutionality of the law, either under Virginia’s Constitution or the Constitution
of the United States, involving the life and liberty of Petitioner, pertaining to the
application of Res Judicata or sustaining demurrers to non*judicial foreclosures; or

4

whether demurrers violate citizens’ Constitutional Rights to due process, and,
further, the constitutionality of non-judicial foreclosures.
STATEMENT OF THE CASE
This case is companion to my case on Summary Judgment, where facts, state­
ments and arguments are applicable to both, but Petitioner repeats parts as follows.
As my “Opening Statement,” I should like to advise that I was raised to never
lie and, thus, I never do! You can always trust that what I have to say is the truth
as I have seen it. Petitioner also wishes to apologize for not knowing the law to a
point that I can argue cases or otherwise, but I was raised and taught right from
wrong, as no doubt you were as well. Your path has led you here to the biggest stage
of “Equal Justice Under Law,” and as the final arbiter of the law, the Court is
charged with ensuring the American people the promise of equal justice under law
and, thereby, also functions as guardian and interpreter of the Constitution.
My path has led me here before you. I only hope that you can see the truth
and, therefore, the wrongs that have been harshly placed upon me by the failure of
the lower courts to recognize the wrongdoing of the banks and such, who have
abused the law. For if this case is once again refused, or passed over, that could not
possibly be considered “equal justice under the law.” That would equate to “no
justice” and laws that are not protective and, thus, UNconstitutional!
Further, I am a pro se litigant, who could not possibly afford an attorney, on
my limited income, but I should not be punished for not knowing the law, as you or
attorneys, or your clerks, do. I don’t make excuses for not knowing ... I just.don’t

5

feel someone like myself, or even someone this court may consider in a different
position, is expected to know the law! but equal justice clearly means I am entitled
to equal protection and unless the facts are judged instead of the pleadings, there is
“no justice.” It seems all prior courts have only judged me on pleadings, which no
doubt I lack some ability to do right, but the truths to the allegations or facts are
what this case should be based on. Again, I do not lie!
And yes, I do feel discriminated against, not so much as a woman or an elder,
but as a pro se litigant, who has no clerks or ability to access the law, where the law
has even played its part in “unlawfully taking” my home and leaving me “homeless.”
I understand that the court can only select a certain number of significant cases,
but “We the People” (and I do stand for all the People, especially in like situations,
either past, present or future) need this case “heard” on its truths/merits.
My biggest fear now is that, with the ongoing problems of the Covid*induced
foreclosure eviction crisis looming, our country and its judicial system will fail to
protect its citizens and will, once again, allow the banks, trusts or trustees to profit
from the oncoming massive foreclosures that are predicted. There is considerable
reason to believe another housing crisis is coming given the huge loss of jobs during
the Covid*19 Pandemic. The earlier foreclosure crisis was devastating and I am
obviously proof, still, as a remnant of the predatory lending that caused that Great
Recession.
Here, and more importantly than ever before, this case should be addressed
quickly so that citizens might be protected before they lose their homes as I have.

6

With the above questions presented, Petitioner feels that the Supreme Court
of Virginia has left the question for this superior court to decide as between
Virginia’s Constitution and the Constitution of the United States that involve the
life and liberty of Petitioner, particularly as she has been deprived of her home and
property and, as such, has become “homeless,” an unconscionable position for her
an elder - to be put in during a pandemic, where the courts have denied her due
process - via scheduled/cancelled jury trial - and denied her in presenting her
preponderance of the evidence, where a jury would serve “justice” by ruling on it.
As quoted from Petitioner’s Petition for Appeal (Appendix P, page 6 therein)“STATEMENT OF THE FACTS
This is an Unlawful Detainer suit resulting from a “wrongful” nonjudicial foreclosure, that no court has recognized or set aside, which was
prematurely filed and charged against Hampton, and was also prematurely
decided by the GDC prior to final decisions in higher courts on Hampton’s
appeals of her case. Hampton was lead to believe that by appealing the GDC
decisions, she would have a Trial by Jury, in a court of equity, as a
Constitutional right; and, thus, her costly Appeal.
Hampton notes here that the twenty minute allotted time to argue at
hearing on PROF’s Motions for Summary Judgment and Demurrer; was
insufficient to present all the evidence that would have been provided in her
three-day Trial by Jury. It would appear the court did not consider all the
evidence, for there was “sufficient” evidence presented by Hampton in
“submitted” Discovery Admissions, from both sides, and her Exhibits A - T
thereto, to show the Assignment of the Deed of Trust (“DOT”) and the Deed of
Foreclosure (“DOF”) were materially defective and in dispute and PROF was
not entitled to Summary Judgment or possession. Those motions were
“fatally” decided, and prevented Hampton’s “Constitutional Rights” to a Trial
by Jury.”
How could Virginia’s Supreme Court conclude “there is no reversible error in
the judgment complained of’ where the evidence clearly demonstrates that in a de
novo review7

1. The Deed of Trust (DOT) should have been found as void ab initio
Appendix W’s attachment presented at the hearing on Hampton’s Motion to
Dismiss as a copy of her Reply Brief to SCOTUS 9-25-19 [No. 18-9127] from
pages 1-2:
“As to Countrywide (“CW”) and the origination of Hampton’s loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices!
authority of the Attorney General: A. ... no person that is engaged in
the business of originating residential mortgage loans in the
Commonwealth shall use any deception, fraud, false pretense, false
promise, or misrepresentation in connection with a mortgage loan
transaction, (emphasis added)
Hampton was deceived, fraud is evident in the transaction staged with
HSBC, and she was sold a re-finance loan they clearly knew was subprime
and/or unaffordable.
CW’s wrongdoing, once again, is further evidenced in the Deed of
Trust, where:
“Under Code of Virginia Section 6.2-1614. Prohibitions applicable to
mortgage lenders and mortgage brokers. No mortgage lender ... shall
1. Obtain any agreement or instrument in which blanks are left to be
filled in after execution! ... 5. ... submitting false information in
connection with an application for the mortgage loan, breaching any
representation or covenant made in the agreement or instrument, or
failing to perform any other obligations undertaken in the agreement
or instrument! ... 7. Knowingly or intentionally engage in the act or
practice of refinancing a mortgage loan within 12 months following the
date the refinanced mortgage loan was originated, unless the
refinancing is in the borrower’s best interest...” (emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of
the above. The blanks referred to page nos. of the re-financed [subprime]
loans, and were never filled in thereafter and, in fact, they were struck
through as if it were not a re-finance, concealing the fact that CW was not
entitled to a prepayment penalty for an in-house refinance, in addition to the
fraud and deceit in recorded documentation with the Clerk’s Office, in
support of Hampton’s claim to a void ab initio DOT. Notable also is this
refinance was done within 11 months and was not in Hampton’s best
interest, since it was set to fail, as clearly it was “unaffordable.”!

8

2. The Note had separated from the mortgage through assignment of the
mortgage only and, thus, the mortgage loan was a nullity and no one had a right to
foreclose per“Carpenter v. Longan 16 Wall.
the U.S. Supreme Court stated
former as essential, the latter
carries the mortgage with it,
nullityU\

271, 83 US. 271, 274, 21 L.Ed. 313 (1872),
‘The note and mortgage are inseparable> the
as an incident. An assignment of the note
while assignment of the latter alone is a

Thus, the Assignment of the DOT from MERS to BANA failed to assign the same to
Fannie Mae - the holder of the Note - creating a separation of the two, making the
assignment a nullity. This assignment came six years after the DOT and three
years after BANA took over. BANA clearly misrepresented itself as owner of the
Note and Mortgage for purposes of foreclosure, which they attempted to do four
times in a six month period following execution of that assignment.
3. That PROF, through its purported attorney in fact, Fay Servicing, LLC
and its assigned Substitute Trustee, Samuel I. White, P.C., proceeded with a
Substitution of Trustee and foreclosure, where they had no rights to do so, were not
secured by the DOT, nor was an assignment of the DOT filed in the courts prior to
foreclosure to show they were secured thereby, and thus the foreclosure was invalid
as was the Unlawful Detainer cases and in violation of Code of Virginia §55-59(9)“ The party secured by the deed of trust, or the holders of greater than fifty
percent of the monetary obligations secured thereby shall have the right and
power to appoint a substitute trustee or trustees ... The instrument of
appointment shall be recorded in the office of the clerk wherein the original
deed of trust is recorded prior to or at the time of recordation of any
instrument in which a power, right, authority or duty conferred by the
original deed oftrust is exercised.” (emphasis added);

9

I

4. Where, further, the Trustee clearly violated his Oath to the Deed of Trust,
acting as a biased fiduciary, and failed to comply with all conditions precedent to
foreclosure, such as notice requirements, HUD regulations and IFR Remediation
Guidelines through Consent Orders with the OCC/US Treasury; (See Petition for
Appeal, Appendix P, para. 31, bridging pages 15 - 18, re violations, etc.) and still
further
5. Trustee ignored the fact that there was a “cloud on title” on the property
that needed to be removed via “Corrective Affidavit,” prior to sale of the property, as
well as a dispute between the parties regarding any default under the security
instrument, and further where a judicial proceeding had been filed to challenge any
rights to foreclose prior to the foreclosure.
All of the above, and much more, being evident from Petitioner’s Petition for
Appeal to the Supreme Court of Virginia, herein Appendix P, pages 6 through 22,
which provided a preponderance of the evidence or could have at the Trial by Jury
which Petitioner was “denied.” Also, all the evidence has been preserved in the
record, which exceeds 2,000 pages.
Still further to para. 32, pages 18*19 of Appendix P, Petitioner quotes“32. Hampton’s Civil Cover Sheet and US District Court, Eastern
District of VA, December 4, 2015, No. U15CV1624, filed to stop the
foreclosure December 7, 2015, was presented at the Trustee Sale, but White
ignored. (H.E.25) (H.A.H)
As laid out in Hampton’s Request for Admissions, noted in #21, based
on the foregoing Exhs. A - H, PROF through White proceeded with
foreclosure, knowing all of the above, yet their responses deny any
“wrongdoing.”
It should be obvious to this court, as Hampton believes it would have
been to her jurists, White on behalf of Fay/PROF did not fulfill all
10

requirements precedent to foreclosure per the DOT, nor did they have a right
to proceed with the same.”
Still further to the above, on page 22 of Appendix P, Petitioner quotes.
“As laid out in Hampton’s Request for Admissions, noted in #22, based
on the foregoing Exhs. I - T, PROF through White proceeded with postforeclosure filings, knowing all of the above, yet their responses deny any
“wrongdoing.”
As can be seen from the List of Exhibits (through 48), there was much
more testimony and exhibits to be presented to the jury in support of the
effects of the “wrongdoings,” and to the costly, even duplicate, expense to
Hampton and to her welfare, her reputation and her physical, mental and
financial well being.”
Petitioner had been trying diligently to stay the Circuit Court’s judgment, as
well as find a new home, both to no avail. Specifically, Petitioner had not been able
to secure affordable housing (in the richest county in the U.S.), and has become
“homeless” during this ongoing Pandemic. Petitioner is also burdened with “two”
petitions herein, as well as accompanying large appendices (270 pages herein and
201 pages in the primary unlawful detainer case), and am a pro se litigant, who
receives no help from outside sources, burdened with heavy expenses, while living
solely on social security, and proceeding in forma pauperis, which is a direct result
of respondent’s negligence and wrongdoing and that of all prior parties who have
purported to be a party to her home and property - her “life and liberty.”
Being in suit in the courts for over five years, the same has involved a great
deal of time and stress, being pro se, and a great deal of expenses, while still
maintaining a decaying 42-year-old trailer-built dwelling and the property, which
Petitioner has been fighting for, on social security benefits only, which is why she is
pro se. Also, being an indigent should not deprive her of her Constitutional rights
11

and she would more than likely not be an indigent if she had not had the expenses
of representing herself before the courts and if Countrywide Home Loans, Inc. (CW)
Bank of America, N.A. (BANA) or Respondent PROF*2013*S3 Legal Title Trust
(PROF) had offered the HAMP modification mandated under the OCC FRB
Financial Remediation Framework - IFR by Consent Orders with the OCC/U.S.
Treasury and dating back to July 29, 20091 nor would there have been a suit before
this honorable court, or any other.
In summation, the respondent has “unlawfully taken” Petitioner’s home, and
the courts have allowed them to do so, in violation of my Constitutional Rights to
due process and the protections of the law, as well as to her rights to defend the
property from such “unlawful takings,” whereby she has also been deprived of her
Trial by Jury, where jurist “would have come to but one conclusion” contrary to that
of the courts, given the preponderance of the evidence.
PROF, their agents, trustees, and such, have all knowingly proceeded with
this “unlawful taking.” And, it is still a further crime that a stay was not granted
and thus the “unlawful taking” took place before this Supreme Court examines the
merits and makes its decision to allow “justice” to prevail. Petitioner knows that
based on the merits of her case, justice must prevail to uphold citizens’
Constitutional rights. Petitioner only prays that the Court grants her Petitions for
Writs of Certiorari and justice does prevail on those merits, to not only her benefit,
but to all U.S. citizens who are entitled to due process and protections of the law, as
laid out in our Constitution.

12

Since Petitioner’s Petition for Appeal before the Supreme Court of Virginia
and its record are so voluminous (far exceeding 2,000 pages), Petitioner is providing
in her Appendix, not only the Orders in the record, but also her filings at the
Supreme Court level, as well as those referenced in the lower case proceedings,
which were used to simplify a review of the Petition for Appeal (Appendix P). Also
provided in the Appendix are Petitioner’s further filings in the Supreme Court of
Virginia, on raising Constitutional Rights, including'
Appendix N: Petition for Rehearing,
Quoting from page 4, “Hampton requested herein ... to find (in this court’s ‘de
novo’ review of the truths and merits) that Appellant was deprived of her
Constitutional Rights to a ‘fair’ trial by jury, where again ‘reasonable minds
would have come to but one conclusion when viewing the evidence,’ ... And
still further to address the Constitutionality of granting Demurrers to non­
judicial foreclosures and ... unlawful detainer statutes and, more
particularly, a citizen’s Constitutional rights to defend one’s property from
‘unlawful takings’ without due process.”
Quoting also from pages 5-6, “By the same evidence, demurrer should not
have been sustained. It would also seem that dismissing on demurrer,
without considering all that evidence, and that which would have been
offered at trial, could be considered an abuse of discretion. The relevant
factors that should have been given significant weight, i.e., breach and
violations to the DOT, were not considered and an improper factor, i.e., a
“defective” DOF, was considered. This abuse of discretion is also evident in
Hampton’s prior suit via failure of the court to consider the Judicial Notices,
praeciped for the same day as that prior “fatal” Demurrer hearing.
These are the reasons why Hampton has always felt that non-judicial
foreclosures and demurrers thereto are unconstitutional. And in the case of a
UD, it would appear the statutes to them are as well, if all the court can
consider is the DOF and its filing in the court as being “prima facie”
evidence.”
Appendix O: Notes from Oral Argument, and
Quoting from pages 4*6, ‘“This Court should find, given Hampton’s evidence
herein that the earlier case was dismissed on administrative convenience and
was not properly reviewed.’
13

... So it is not clear how res judicata should apply here! ...
This Court in a de novo review is hoped will decide ‘without deference’
to a previous court’s decision and, in doing so, consider the truths to the
allegations ... in the facts and arguments herein, and not on those prior
demurrers.
This is not an injury case, as in man vs. man, and after a careful review of
the facts, it should not take much to determine that those prior suits,
although perhaps not pled well, contained sufficient evidence therein, to find
a cause of action and further set aside the foreclosure action itself.
This being a UD case, it appears to me that the statutes ... offer no
protections of the law and violate citizens’ Constitutional rights to due
process in defending one’s property from unlawful takings.”
Appendix Q: Appellant’s Response to Motion to Dismiss Petition for Appeal.
Quoting from page 5, “Hampton was deprived of her Constitutional Rights to
a “fair” Trial by Jury and from the ruling below, it also appears that
Demurrers to non-judicial foreclosures offer no protections of the law and
violate citizens’ Constitutional Rights to due process in defending their
Property from ‘unlawful takings.’”
And, as detailed on page 3 of the Appendix’ Contents, Petitioner’s filings in the
Circuit Court, as particularly referenced in the Petition for Appeal are included as:
Appendix R- Objections to the Final Order
Quite nearly everything in the arguments to the Petition for Appeal
(Appendix P herein) was quoted from the Objections and therein cite where
each element was brought to attention in its quoted material from the
following Motions'
Appendix S' Motion for Rehearing or in the Alternative Motion for a Mistrial
Supporting Memorandum ofLaw\
Appendix T- Motion for Rehearing or in the Alternative Motion for a Mistrial
Appendix U' Motion for Reconsideration ofFurther Support to Memorandum
ofLaw',
Appendix V- Motion for Reconsideration and Supporting Memorandum of
Law(with attachments from related Civil Case No. 98163-00);
and
Appendix W* Hampton’s Motion to Dismiss (with attachment from related
SCOTUS No. 18-9127 Reply Brief):
14

“As was raised in the General District Court, in Parrish v. Federal National
Mortgage Association (292 Va. 44, 787 S.E.2d 116 (2016), the Supreme Court
of Virginia held that “where a borrower raises a bona fide question as to the
validity of title in a case originally filed in the General District Court (or
subsequently appealed to the Circuit Court from the General District Court),
the case must be dismissed without prejudice because the General District
Court lacks original subject matter jurisdiction to adjudicate the validity of
title.”
All of these circuit court filings have been referenced in quotes in the Petition
for Appeal, particularly to show where in the record they have been preserved.
CONSTITUTIONAL AND STATUTORY
PROVISIONS DETAILED
The reasons for granting the Petition fall on the federal constitutional
provisions that are involved in this petition and are found in the United States
Constitution (Petitioner’s bold emphasis added):
Amendment V:
“No person shall ... be deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for public use, without just
compensation.”
The U.S. National Archives, The Bill of Rights - Fifth Amendment - Rights of
Persons:
From page 1341:
"... the Court has been clear that it may and will independently review the
facts when the factfinding has such a substantial effect on constitutional
rights. [Fn. 360] Tn cases in which there is a claim of denial of rights under
the Federal Constitution this Court is not bound by the conclusions of lower
courts, but will re-examine the evidentiary basis on which those conclusions
are founded.’ Niemotko v. Maryland, 340 U.S. 268, 271 (1951); Time, Inc. v.
Pape, 402 U.S. 279, 284 (1971), and cases cited therein.”
Hampton believes that had she not been denied her three-day trial by jury,
she would have prevailed on the merits, with a preponderance of evidence.
15

From page 1346“It may prevent confusion, and relieve from repetition, if we point out that
some of our cases arose under the provisions of the Fifth and others under
those of the Fourteenth Amendment to the Constitution of the United States.
... it may be that questions may arise in which different constructions and
applications of their provisions may be proper. ... The most obvious difference
between the two due process clauses is that the Fifth Amendment clause as it
binds the Federal Government coexists with a number of other express
provisions in the Bill of Rights guaranteeing fair procedure and non-arbitrary
action, such as jury trials, grand jury indictments, and nonexcessive bail and
fines, as well as just compensation, whereas the Fourteenth Amendment
clause as it binds the States has been held to contain implicitly not only the
standards of fairness and justness found within the Fifth Amendment’s
clause but also to contain many guarantees that are expressly set out in the
Bill of Rights. In that sense, the two clauses are not the same thing, but
insofar as they do impose such implicit requirements of fair trials, fair
hearings, and the like, which exist separately from, though they are informed
with, express constitutional guarantees, the interpretation of the two clauses
is substantially if not wholly the same. ... Finally, it should be noted that
some Fourteenth Amendment interpretations have been carried back to
broaden interpretations of the Fifth Amendment’s due process clause, such
as, e.g., the development of equal protection standards as an aspect of Fifth
Amendment due process.”
From page 1348“... in observing the due process guarantee, it was concluded the Court must
look ‘not [to] particular forms of procedures, but [to] the very substance of
individual rights to life, liberty, and property.’ ... The phrase ‘due process of
law’ does not necessarily imply a proceeding in a court or a plenary suit and
trial by jury in every case where personal or property rights are involved. ...
What is unfair in one situation may be fair in another. ... The precise nature
of the interest that has been adversely affected, the manner in which this
was done, the reasons for doing it, the available alternatives to the procedure
that was followed, the protection implicit in the office of the functionary
whose conduct is challenged, the balance of hurt complained of and good
accomplished - these are some of the considerations that must enter into the
judicial judgment.”
Looking to the very substance of Hampton’s rights to life, liberty, and
property, as evidenced in the facts, it should be obvious that unfair judgments have

16

so adversely affected her life by the loss of her home and property, thus rendering
her “homeless” and by those with “dirty hands” for failure of all parties to abide by
the precedents conditioned in the DOT, and in further failing to offer up the
mandated HAMP modification, she was approved for in July, 2009, where BANA
required her to go bankrupt to qualify for the HAMP, which in turn destroyed her
excellent credit. Hampton, just as in Wigod [Wigod v. Wells Fargo Bank, 673 F.3d
54 (7th Cir. 2012)], has been waiting over ten years for her HAMP modification,
retro to July 29, 2009, as mandated by the Independent Foreclosure Review
Remediation Framework and ‘Consent Orders’ with both US Bank on behalf of its
Trusts, as well as BANA, and instead of complying with those mandated remedies,
PROF, and its agents or assigns, proceeded with foreclosure in violation of the
precedents to the governing DOT and where foreclosure was not permitted by
PROF, an unsecured purported note holder, who exercised the right to foreclose, but
had no power to do so.
This court should find that PROF and all its associated agents, attorneys and
trustees, as well as prior holders and/or assigns, and, accordingly, prior courts have
violated the US Constitution by taking this citizen’s property in a “non-judicial
foreclosure” without due process and “fairness” in any proceedings. In over five
years of litigation, Petitioner has never been extended “due process” in violation of
the Fifth and Eleventh Amendments, as due process is defined by this court.
From page 1356“Substantive Due Process

17

Justice Harlan, dissenting in Poe v: Ullman, [Fn. 65: 367 U.S. 497, 540, 541
(1961). The internal quotation is from Hurtado v. California, 110 U.S. 516,
532 (1884). Development of substantive due process is noted, supra, pp. 134347 and is treated infra, under the Fourteenth Amendment.] observed that one
view of due process, ‘ably and insistently argued ..., sought to limit the
provision to a guarantee of procedural fairness.5 But, he continued, due
process ‘in the consistent view of this Court has ever been a broader concept
.... Were due process merely a procedural safeguard it would fail to reach
those situations where the deprivation of life, liberty or property was
accomplished by legislation which by operating in the future could, given
even the fairest possible procedure in application to individuals, nevertheless
destroy the enjoyment of all three. ... Thus the guaranties of due process,
though having their roots in Magna Carta’s ‘per legem terrae’ and considered
as procedural safeguards ‘against executive usurpation and tyranny,5 have in
this country ‘become bulwarks also against arbitrary legislation.555
The courts have contributed to Hampton’s deprivation of life, liberty or
property and any state laws allowing this deprivation must be examined under the
Constitution of the United States.
From page 1357*1359:
“The Fifth Amendment, which is applicable in the District of Columbia, does
not contain an equal protection clause as does the Fourteenth Amendment
which applies only to the states. But the concepts of equal protection and due
process, both stemming from our American ideal of fairness, are not mutually
exclusive. The ‘equal protection of the laws’ is a more explicit safeguard of
prohibited unfairness than ‘due process of law,’ and, therefore, we do not
imply that the two are always interchangeable phrases. But, as this Court
has recognized, discrimination may be so unjustifiable as to be violative of
due process.55
Although Hampton has not made a case for discrimination, there have been
several occasions in the courts when she has felt discriminated against due to being
a pro se litigant, where the truths or evidence have been ignored.
“... Although the Court has not assumed to define ‘liberty5 with any great
precision, that term is not confined to mere freedom from bodily restraint.
Liberty under law extends to the full range of conduct which the individual is
free to pursue, and it cannot be restricted except for a proper governmental
18

objective. Segregation in public education is not reasonably related to any
proper governmental objective and thus it imposes on Negro children of the
District of Columbia a burden that constitutes an arbitrary deprivation of
their liberty in violation of the Due Process Clause.
‘Equal protection analysis in the Fifth Amendment area,’ the Court has said,
‘is the same as that under the Fourteenth Amendment.’ ... However, almost
all legislation involves some degree of classification among particular
categories of persons, things, or events, and, just as the equal protection
clause itself does not outlaw ‘reasonable’ classifications, neither is the due
process clause any more intolerant of the great variety of social and economic
legislation typically containing what must be arbitrary line-drawing. ... for
example, the Court has sustained a law imposing greater punishment for an
offense involving rights of property of the United States than for a like
offense involving the rights of property of a private person. ...
The federal sovereign, like the States, must govern impartially. ... [B]ut ...
there may be overriding national interests which justify selective federal
legislation ....”
It is with this section that Hampton believes that there is “national interests”
that the doctrine of non-judicial foreclosures should be uniform and nationwide, or
banned as unconstitutional. Why not require one to prove that one has a right to
foreclose before exercising the right of it. This is what Hampton has experienced in
her case, whereby she has lost her very home and property of 25 years to the dirty
hands of those who had no right to foreclose. This is also why Hampton feels that
non-judicial foreclosures should be barred as unconstitutional!
Amendment YIP
“In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.”
Still further to Jury Trials, Petitioner’s Appendix N, Petition for Rehearing in
the Virginia Supreme Court, stated as follows19

“Hampton is hopeful with ‘new eyes’ that one will recognize the problems
with this Court’s initial Decision, and understand how she was both ‘shocked
and dismayed’ by that Decision. For to render such, in her opinion,
particularly in a de novo review, is to deny her due process and protections
under the law as laid out in the Virginia and U.S. Constitution and Virginia’s
Bill of Rights.”
Again, under the Bill of Rights'
“That no person shall be deprived of his life, liberty, or property without due
process of law; that the General Assembly shall not pass any law impairing
the obligation of contracts, nor any law whereby private property shall be
taken ... That in controversies respecting property, and in suits between man
and man, trial by jury is preferable to any other, and ought to be held
sacred.”
This Court [SCOTUS] has determined that the loss of an individual’s home
constitutes a final, lasting deprivation of property entitling him/her to the
protection of the due process clause. Cleveland Board of Education v. Loudermill,
470 U.S. 532, 538*541 (1985) (“The point is straightforward: the Due Process Clause
provides that certain substantive rights - life, liberty, and property - cannot be
deprived except pursuant to constitutionally adequate procedures”).
Factors roughly in order of priority that have been considered to be elements
of a fair hearing* (l) an unbiased tribunal; (2) notice of the proposed action and the
grounds asserted for it; (3) an opportunity to present reasons why the proposed
action should not have been taken; (4), (5) and (6) the right to call witnesses, to
know the evidence against one and to have decision based only on the evidence
presented; (7) counsel; (8) and (9) the making of a record and a statement of
reasons; (10) public attendance; and (ll) judicial review. Friendly, “Some Kind of
Hearing,” 123 U.Pa.L.Rev. 1267, 1279*95 (1975). [Petitioner’s Emphasis Added]

20

Petitioner, with this wrongful foreclosure and eviction, has been permanently
deprived of her ownership, possession, and use of the property, which she used as
her primary residence for over 25 years? this clouds the title to the property even
further than it already was with the need for a “Corrective Affidavit”* further
impairs her ability to sell, rent, or otherwise alienate the property; taints her credit
rating; reduces the chance of her obtaining a future loan or mortgage; has subjected
her to eviction and homelessness; and jeopardizes her security in a dwelling place.
And where with compliance of the mandated remedies to the IFR Remediation
Framework, Hampton could have profited years ago and has received no
compensation where she has spent hundreds of thousands of dollars invested in the
property, which she has been deprived of those who have no right to do so.
In addition to the loss of property, adverse judgments as well as bankruptcies
are lasting marks on one’s integrity, honor and character. For where a person’s good
name, reputation, honor or integrity is at stake, due to the taking of the property
should surely be held as unconstitutional and should have been found void as well
as to the foreclosure itself, and particularly with the evidence that supports the
facts that all Deeds and Assignments on the property should be held void, including
the DOT as void ab initio.
Still further, in addressing the question of Petitioner’s right to a jury trial
and due process, the court scheduled the Trial by Jury, which Petitioner was
entitled to, and had the trial NOT been cancelled by the bench’s Orders on
Summary Judgment and Demurrer, due process and justice would have prevailed

21

where jurist would have found the foreclosure, as well as all recorded Deeds on file,
to be void as a matter of law.
As stated in Petitioner’s primary case herein, Petitioner tried to obtain a
further Stay in the Circuit Court, as well as two attempts here in this Court (in
addition to a request for a further extension of time), given Hampton’s “homeless”
situation and her need to prepare two Petitions together with “two” large
Appendices. The courts denied those petitions to stay ... [and] the eviction took
place ... on July 14, 2021, rendering Petitioner as “homeless.” Accordingly, even the
procedural process for obtaining the same seems “unconstitutional” where the
courts have permitted this “unlawful taking,” prior to judgment on the merits.
Amendment XIV, Section 1“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without the due process of law!
nor deny to any person within its jurisdiction the equal protection of the
laws.”
It is a fundamental principle that one has the right to protect his or her
property from its “unlawful taking” by another. Consistent with the United States
Constitution, the Virginia Constitution, Article I, §1 states“[A] 11 men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity; namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.”
And Article I, §11 further states:

22

no person shall be deprived of his life, liberty, or property without due
process of law. ... That in controversies respecting property, and in suits
between man and man, trial by jury is preferable to any other, and ought to
be held sacred.”
Failure of due process began with the non-judicial foreclosure and despite all
facial and material defects to the Deed of Assignment (from BANA to PROF), filed
post foreclosure, and the Deed of Foreclosure itself, the court has permitted these
violations to occur by its clearly erroneous finding and/or abuse of discretion for
failing to weigh the evidence from both sides. The relevant factors that should have
been given significant weight, i.e., breach and violations to the DOT, were not
considered and an improper factor, i.e., a “defective” DOF, was considered. This can
be clearly seen in the evidence provided in this case, where the courts have either
ignored, overlooked or misinterpreted the same. This abuse of discretion is also
evident in Hampton’s prior suit via failure of the court to consider the Judicial
Notices, praeciped for the same day as that prior “fatal” Demurrer hearing.
Still further on Due Process (Petitioner’s bold emphasis added)“As taken from William & Mary Bill of Rights Journal [Val. 22-1221 2014] pp. 12451246, Julie A. Cook, J.D. Candidate, 2014, William & Mary School of Law; B.H.,
2011 magna cum Jaude, Clemson University. “Consider the following'
In light of the recent decision announced by the Supreme Court of the United
States in Ashcroft v. Iqbal, the pleading standard established under Federal
Rule of Civil Procedure 8(a)(2) requires that, in order to survive a motion to
dismiss, a complaint must contain sufficient factual matter to ‘state a claim
to relief that is plausible on its face.’ With respect to pro se plaintiffs, Federal
Rule of Civil Procedure 8(a)(2) is. unconstitutional because it violates an
individual’s procedural due process rights by requiring a pleading standard
that a layperson finds difficult to satisfy. ...
The argument presented in this Note is analogous to the deprivation of
pro se litigants’ right to due process. Just as pro se litigants lack the
23

information and expertise necessary to pass muster under the standard of
Rule 8, resulting in the premature dismissal of their claims, plaintiffs
asserting negligent misrepresentation claims may not have the tools
necessary to satisfy heightened pleading. The lack of uniformity in courts in
applying a pleading standard, as demonstrated by the current federal circuit
court split, prevents plaintiffs from receiving adequate notice of what is
sufficient to avoid dismissal. Courts conflation of the elements of negligent
misrepresentation with fraud also contributes to the dismissal of claims that
might otherwise have merit. Finally, the inconspicuous elements of negligent
misrepresentation, when paired with the requirements of heightened
pleading, present an undue burden on plaintiffs who, at the outset of a claim,
are unable to utilize the tools of discovery. ... a material injury constituting a
deprivation of plaintiffs rights to procedural due process.”
“The purpose of a Rule 12(b)(6) motion is to test the sufficiency of a
complaint,” not to “resolve contests surrounding the facts, the merits of a
claim, or the applicability of defenses.” Edwards v. City of Goldsboro, 178
F.3d 231, 243-44 (4th Cir. 1999). ... A claim is plausible if the complaint
contains “factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged,” and if there
is “more than a sheer possibility that a defendant has acted unlawfully.”
Ashcroft v. Iqbal\ 129 S.Ct. 1937, 1949 (2009). The Court restated the
substance and application of the Bell v. Twombly test for the sufficiency of
pleadings' “Determining whether a complaint states a plausible claim for
relief will, as the Court of Appeals observed, be a context-specific task that
requires the reviewing court to draw on its judicial experience and common
sense.”
The refusal of the Trial Examiner to receive and consider competent and
material evidence which could have been offered after a reasonable
opportunity to meet the charges amounts to denial of due process, and the
fact that the Board had reached, or might have reached, no different
conclusion had the rejected evidence been received is entirely beside the
point. N.L.R.B. v. Burns, 8 Cir., 1953, 207 F.2d 434.
Clearly, Petitioner herein has been denied due process by not only the Circuit
Court, but also by the Supreme Court of Virginia, whose Opinion stated “there is no
reversible error in the judgment complained of.”
From The Making of Modern Law• US. Supreme Court Records and Briefs,
1832-1978, containing the world’s most comprehensive collection of records and
24

briefs brought before the nation’s highest court by leading legal practitioners
many who later became judges and associates of the court, Hampton wishes to draw
particular attention to portions of the following Jurisdictional Statement.
In the matter of Flora Daun Fowler, Appellant v. Maryland State Board of
Law Examiners, No. 77-801, 434 U.S. 1043, 98 S.Ct. 844, 54 L.Ed2d 793 (1977)
quoting from her Jurisdictional Statement“The federal constitutional provisions involved in this appeal are found
in the United States Constitution, Amendment XIV, Section V
‘All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or
property, without the due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.’
Where federal action is concerned- ‘The right to hold specific private
employment and to follow a chosen profession free from unreasonable
governmental interference comes with the “liberty” and “property” concepts of
the provisions of the Fifth Amendment to the Federal Constitution that no
person shall be denied liberty or property within due process of law. Green v.
McElroy 360 U.S. 474, 79 S.Ct. 1400’
The Fourteenth Amendment protects liberty or property from state action
lacking due process provisions.
The nature of notice and hearing was elaborated upon in the case of Hornsby
v. Allen, 326 F.2d 605.
‘Due process in administrative proceedings of a judicial nature
generally requires conformance to fair practices of Anglo-Saxon
jurisprudence, and this is equally equated with adequate notice and
fair hearing - requirements that parties be allowed opportunity to
know opposing parties’ claims, to present evidence to support their
contentions, and to cross-examine opposing parties’ witnesses, but
strict adherence to common law rules of evidence at hearing is not
required.’
25

The Fourteenth Amendment demands that a state treat all citizens alike,
unless there is a sufficient reason to treat them differently. The concept of
equal protection has been traditionally viewed as requiring uniform
treatment of persons standing in the same relation to the action of
government. The Equal Protection Clause requires that state laws be applied
uniformly to situations which cannot be reasonably distinguished.
For the reasons set forth in this Jurisdictional Statement, the questions
presented herein being substantial and of public importance, should be heard
and decided on this appeal.”
The integrity of the rule of law is at stake, as the most basic of our due
process rights are involved.
It is a fundamental principle that one has the right to protect his or her
property from its unlawful taking by another. Consistent with the United States
Constitution, the Virginia Constitution states'
[A] 11 men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity; namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.
Va. Const., Article I, §1. It further states that “no person shall be deprived of his
life, liberty, or property without due process of law.” Va. Const., Article I, §11.
The federal government, the states, and the courts of all levels, are tasked
with the daunting task of protecting the property rights of citizens from theft,
conversion, fraud, and otherwise “unlawful takings.” One’s property rights can be
protected through criminal proceedings, through civil proceedings, and sometimes
both. This is a civil action appeal filed to defend and protect Hampton’s property
rights from the unlawful taking of those rights by PROF.

26

AUTHORITIES AND ARGUMENTS
Restating from Hampton’s Petition for Appeal (Appendix P, beginning pages
26*27) statements originally made in her Objections to the Final Order on Demurrer
to Counterclaims & Sanction Action (Appendix R), in part“So here Judge Sincavage is stating that this was not a review of the
General District Court’s rulings or proper findings, but, in fact, a trial de
novo, without deference to a previous court’s decision. But yet, on demurrer,
the court dismisses the trial de novo, based on the prior case, where neither
the Unlawful Detainer count was addressed or ruled on, nor the ‘wrongful
foreclosure’ count. ...
For the courts to allow these demurrers, what speaks to Hampton here
is that the courts find no ‘wrongful behavior.’ This should not be the case,
where a dismissal on demurrer is designed to weed out cases for the courts,
not to throw them out because it is too much to read and/or comprehend as in
Hampton’s case and her complained of ‘volumes of pages of a Complaint and
its exhibits,’ where its size was necessary considering it spanned a 15*year
period of abuse, neglect and wrongful behavior. Here, again, a trial by jury is
a Constitutional Right and Hampton’s rights have been continuously denied
by these demurrers.
Absent a full review of what has gone before in that prior case, this
court on Unlawful Detainer should not have accepted as true that res
judicata applied here, as it was argued by those who do not wish for the
‘truth of the allegations’ to be heard and/or decided on its merits.”
Since Petitioner’s Counterclaims were sustained on demurrer, based on
Hampton’s prior suit, also dismissed on demurrer - though the facts are clear that
it should not have been based on the evidence - the issue here relies on the doctrine
of Res Judicata. Petitioner wishes to add here that at no time has PROF or counsel
for PROF admitted to “the truth of the facts alleged in the pleading to which it is
addressed, as well as any facts that may be reasonably and fairly implied and
inferred from those facts.” And to the contrary, they have denied any wrongdoing,

27

as can be seen in the Admissions that Hampton provided to the Circuit Court in
response to PROF’s Motions on Summary Judgment and Demurrer.

AUTHORITIES AND ARGUMENTS
Hampton’s Petition for Appeal (Appendix P) page 24, quotes as followsRes Judicata
“Res judicata involves both issue and claim preclusion.” Funny Guy;
LLC v. Lecego, LLC\ 293 Va. 135, 142 (2017). While claim preclusion bars
relitigation of a cause of action, issue preclusion bars relitigation of a factual
issue. DAmbrosio v. Wolf 295 Va. 48, 56 (2018). Whether a claim or issue is
precluded by a prior judgment is a question of law this Court reviews de
novo. Caperton v. A.T. Massey Coal Co., 285 Va. 537, 548 (2013).
[t]he doctrine of res adjudicata is a rule founded on the soundest
consideration of public policy. The doctrine is founded upon two
maxims of law, one of which is that “a man should not be twice vexed
for the same cause!” the other is that “it is for the public good that
there be an end of litigation.” (bold emphasis added)
Patterson v. Saunders, 194 Va. 607, 612 (1953) (alteration and citation
omitted)
Here PROF is neither a man, nor does it have Constitutional rights as Hampton
does, nor is it being twice tried and Hampton is not coming through the back door to
relitigate or retry the earlier suit. Hampton is trying to have the issues tried for the
first time and defending herself from “unlawful takings” and has a Constitutional
right to do so.
“The courts’ disposition of legal disputes too often turned not on
the substance, truth, or legal sufficiency of the claims litigants
■ asserted, but on obligatory adherence to rigid canons of pleading that,
to state a recognized cause of action, procedural law directed parties to
observe minutely. Such excessive formalism frequently curtailed the
parties’ ability to obtain information vital to a full adjudication of the
questions at issue, and thus obstructed achieving the civil legal

28

system’s most essential goals- securing access to justice, determining
the truth behind factual disputes, and deterring wrongful conduct.
Mission to Dismiss- A Dismissal of Rule 12(b)(6) and the Retirement of
Twombly/Iqbal, Cardozo Law Review, Volume 40, Issue 1 (2018). (bold
emphasis added)
“There needs to be a distinction between pleading and proof or
evidence, and further “Without courtesy, fairness, candor, and order in the
pretrial process ... reason cannot prevail and constitutional rights to justice,
liberty, freedom and equality under law will be jeopardized.” Code ofPretrial
and Trial Conduct, p. 2.
One only needs to review the facts to find clear and genuine facts in
dispute and as “submitted” in Hampton’s Admissions (from both sides) with
her Exhibits. Hampton also filed Reconsideration motions, and then Motions
for Rehearing or in the Alternative Motions for a Mistrial and Supporting
Memorandum of Law, to “complete and preserve” the record, before Final
Orders issued, and to give the court the opportunity to make an informed
ruling on the issues to prevent needless appeals and in hopes of “justice”
resulting in a trial by jury, not by the bench.”
At the hearing granting Summary Judgment and sustaining Demurrer;
Hampton was only permitted 20 minutes to sum up what she would have in her
three-day trial by jury, and had presented evidence via Response and “submitted”
Admissions from both parties, and her exhibits thereto, which could prove PROF
had no right to summary judgment. The court seemingly ignored those exhibits and
based its decision solely on the DOF as being “prima facie” evidence simply by the
filing of it by Trustee, which should have been found as an abuse of discretion.
Petitioner’s Petition for Rehearing stated at page 5*
“By the same evidence, demurrer should not have been sustained. It
would also seem that dismissing on demurrer, without considering all that
evidence, and that which would have been offered at trial, should be
considered an abuse of discretion. The relevant factors that should have been
given significant weight, i.e., breach and violations to the DOT, were not
considered and an improper factor, i.e., a “defective” DOF, was considered.
29

This abuse of discretion is also evident in Hampton’s prior suit via failure of
the court to consider the Judicial Notices, praeciped for the same day as that
prior “fatal” Demurrer hearing.”
If the court had examined all the evidence, it should have found that DOF as
both “facially” and “materially” defective and found it void or voidable, as well as
the foreclosure itself. And, if PROF had not been granted Summary Judgment,
Hampton’s trial by jury should have moved forward and with her evidence before
the court, it would have caused a different outcome, no doubt.
Because of this wrongful finding of Summary Judgment and Demurrer, based
on a prior case not truly “litigated,” Hampton was deprived of her Constitutional
rights to her granted three-day trial by jury. This would seem a contradiction of the
law, where a criminal has more rights than a non-criminal.
Hampton still further motioned for a Rehearing as a 20-minute hearing was
insufficient time to present evidence that would have been presented at the threeday trial by jury, which the court deemed a further Motion for Reconsideration.
Hampton filed both motions and, more particularly, in the Motion for Rehearing...
Supporting Memorandum ofLaw, she spelled out the evidence and noted violations,
and as quoted in her Petition therein...to “complete and preserve” the record, before Final Orders issued, and to
give the court the opportunity to make an informed ruling on the issues to
prevent needless appeals and in hopes of “justice” resulting in a trial by jury,
not by the bench.
That motion was denied right before the Final Orders were rendered.
Still further argued at Petition for Appeal, page 26-

30

"... This court should review those Petitions as clearly the Circuit
Court in that earlier case failed their duties and “did not seek or determine
the truth of the allegations,” for if it had, it would not have permitted the
Demurrers and Pleas in Bar. All the defendants in Hampton’s case were
guilty of the alleged wrongdoing and deceived the courts with their responses.
They knew full well what they had done wrong, but admitted to nothing.
... Absent a full review of what has gone before in that prior case, this
court on Unlawful Detainer should not have accepted as true that res
judicata applied here, as it was argued by those who do not wish for the
“truth of the allegations” to be heard and/or decided on its merits.”
From Petition for Rehearing quoting from page 8:
“Continuing from Hampton’s Objections to the Final Order on
Demurrer to Counterclaims & Sanction Action"... As can be seen in Judge Sincavage’s Final Order; what Judge
Sincavage stated therein as to the issue of demurrer follows.
... “The demonstration of the deed of foreclosure which has not been
found to be invalid, for the. reasons that have been stated previously such an
attack isn’t cognizable in'this litigation”... “and as well because there’s been
an attempt to attack in a previous case the validity of the foreclosure. That
case was dismissed at demurrer, and that is under the law a decision on the
merits.” ... where Judge Sincavage further found- “It was the same
transaction and occurrence and all the issues relating to the foreclosure sale
either were or should have been litigated in that case, so on the ground I find
that the demurrer to the counterclaim should be - to the document called
counterclaim and sanctions should be sustained in all respects.”
How could this be true, where clearly the merits and most of the evidence
were already in that earlier case and, again, how is a pro se litigant expected to
know the law to avoid a demurrer, especially where there was convincing evidence
to the wrongful behavior, which should prove the court’s abuse of discretion.
Petitioner adds here that “the idea of presumption of knowledge of law” for a pro se
litigant seems unconstitutional as well.

31

Continuing from Petition for Rehearing•
“And restating from Hampton’s first Motion for Reconsideration*
"... what does it take to survive a Demurrerwhere clearly the evidence
shows that before a trial by jury, Hampton would have prevailed with a
preponderance of the evidence. There is no justice in dismissing on
Demurrer, where the evidence can prove otherwise. It is PROF who fears this
outcome, because surely they would not survive a trial by jury. ... And this
court has failed Hampton on her rights to defend her property from the
“unlawful taking” of the same against her Constitutional Rights to Due
Process, and this court has failed in protecting Hampton from the same.
Still further to res judicata and due process in Hampton’s case“Due process in an administrative hearing includes a fair trial, conducted in
accordance with the fundamental principles of fair play and applicable
procedural standards established by law. Administrative convenience or
necessity cannot override this requirement.” Swift and Co. v. United States,
7 Cir., 1962, 308 F.2d 849; Hornsby v. Allen, 5 Cir., 1964, 326 F.2d 605.
The lower court in that prior suit should have found predatory lending,
a void ab initio DOT and the “Cloud on Title” evident requiring a “Corrective
Affidavit,” and clearly with the violation of the Consent Orders, and breach to
and violations to the governing DOT, a “wrongful foreclosure” had occurred
and should have been set aside and Hampton had exercised her rights to file
suit before foreclosure and challenged then Defendants’ on their conduct and
right to Title.
This Court should find, given Hampton’s evidence herein (all related to
the sale of the Property), that the earlier suit was never tried, there were no
admissions to the facts, there was no discovery, where clearly the court failed
to address all the evidence and abused their discretion on the judicial notices
pled, was not properly reviewed, and was dismissed on administrative
convenience, thus not truly tried and res judicata cannot apply.
Here PROF is neither a man, nor is it being twice tried and Hampton
is not trying to come through the back door to relitigate or retry the earlier
suit. Hampton is trying to have the issues tried for the first time and
defending herself from unlawful takings by thieves and she has a
Constitutional right to do so.
Still further from the Motion for Reconsideration*

32

“Hampton had requested and the court permitted a trial by jury, but
has been deprived of proving to the court that their bench trials have been
improper, unfair, and unconstitutional given the facts and evidence herein.
Clearly, these rulings are unconstitutional! And it would appear to Hampton
that a criminal, which she is not, has every right to a trial by jury, but
Hampton’s [case] has been dismissed and not permitted to be tried by jury,
but instead by a single judge. ... Hampton believes that Demurrers to non­
judicial foreclosures should be banned as unconstitutional.”
Continuing from Hampton’s Petition for Appeal, page 32Further to Hampton’s Petition to SCOTUS, quoting Hornsby v. Allen,
326 F.2d 605:
“The role of the courts is to ascertain the manner in which this
determination was or is made accords with constitutional standards of
due process and equal protection.” And “It follows that the trial court
must entertain the suit and determine the truth of the allegations.”
This Court should find, given Hampton’s evidence herein (the majority of
which was in that prior case), that earlier case was dismissed on administrative
convenience and was not properly reviewed. Further to Rule 12(b)(6)“The plaintiff must allege facts in the amended complaint that ‘state a claim
to relief that is plausible on its face’ and that ‘nudges [her] claims across the
line from conceivable to plausible.’ Bell Atlantic Corp. v. Twombly; 550 U.S.
544, 570 (2007. A claim is plausible if the complaint contains ‘factual content
that allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged,’ and if there is ‘more than a sheer
possibility that a defendant has acted unlawfully.’ Ashcroft v. Iqbal, 129 S.Ct.
1937, 1949 (2009). The Court restated the substance and application of the
Bell v. Twombly test for the sufficiency of pleadings- ‘Determining whether a
complaint states a plausible claim for relief will, as the Court of Appeals
observed, be a context-specific task that requires the reviewing court to draw
on its judicial experience and common sense.’” (bold emphasis added)
That prior court decision also charged Hampton with not pleading well, but
as found in Maty v. Grasselli Chemical Co., 303 U.S. 197 (1938)•

33

“Pleadings are intended, to serve as a means of arriving at fair and just
settlements of controversies between litigants. They should not raise barriers
which prevent the achievement of that end. Proper pleading is important, but
its importance consists in its effectiveness as a means to accomplish the end
of a just judgment.”
Still further from the Motion for Reconsideration“Hampton had requested and the court permitted a trial by jury, but
has been deprived of proving to the court that their bench trials have been
improper, unfair, and unconstitutional given the facts and evidence herein.
Clearly, these rulings are unconstitutional! And it would appear to Hampton
that a criminal, which she is not, has every right to a trial by jury, but
Hampton’s [case] has been dismissed and not permitted to be tried by jury,
but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by
allowing these criminals (SIW, Fay, PROF, and whoever else identified or
not) to unlawfully take my home against my Constitutional rights to defend
the same and my entitlement to procedural due process and the protections of
the law. Hampton believes that Demurrers to non-judicial foreclosures should
be banned as Unconstitutional!”
The Fourteenth Amendment to the U.S. Constitution provides“No State shall... deprive any person oflife, liberty, or property, without due
process oflaw...”
Granting demurrers to non-judicial foreclosures appears to offer no
protections of the law and violates citizens’ Constitutional Rights to due process in
defending their Property from “unlawful takings.”
REASONS FOR GRANTING THE PETITION
Hampton has been fighting for justice not only for herself, but for all the
citizens of the U.S., as she has felt this “her path” for over a decade. And despite all
the disappointments, of denial to be heard and tried by a jury and afforded due
process, as Constitutional rights, she continues, but worries for the future.

34

Hampton had requested that the lower court’s judgment be determined as
erred in sustaining demurrer and that res judicata was inappropriate to apply, and
to find (in that court’s “de novo” review of the truths and merits) that Appellant was
deprived of her Constitutional Rights to a “fair” trial by jury, where “reasonable
minds would have come to but one conclusion when viewing the evidence,” ... And
still further to address the Constitutionality of demurrers to non-judicial
foreclosures that violate citizen’s Constitutional rights to defend one’s property from
“unlawful takings” and without due process.
Because the Supreme Court of Virginia has failed to find error in the Circuit
Court’s rulings, it appears that the unlawful detainer (UD) statutes violate citizens
Constitutional rights and particularly in a non-judicial foreclosure setting.
As in Hampton’s prior Petition to SCOTUS, and numerous times before all
courts, and again herein, quoting Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964)“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.”
PROF has never produced any evidence that they had a right to possession,
and never presented the Note, believed to be forged, and was not entitled to
summary judgment, where both the Assignment of the DOT to PROF (post
foreclosure) and the Deed of Foreclosure (DOF) had facial and material defects.
And, as a matter of law, PROF was not entitled to the remedy of foreclosure, where
its purported Note was not secured by the DOT, and the governing DOT should

35

have been found as void ab initio, and where under Carpenter v. Longan, the
assignment of the DOT was a nullity and, therefore, void ab initio.
PROF’s Trustee knew they breached the DOT and noted violations (as
evident in Hampton’s Petition spanning six quoted pages), which alone should be
found as a reversible error, and knew they had violated their oaths as fiduciary to
the DOT, acting only as a biased fiduciary, and further, had to have known that the
foreclosure should be set aside. And where Hampton argued'
"... When a trustee buys at his own sale, a constructive fraud exists> the
transaction is voidable> and when attacked, the sale must be set aside? ...
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d 837, 840
(1974) ... “As Whitlow requires that the foreclosure sale be set aside, the trial
court had no legal basis for granting the summary judgment.”
From the shear volume of this unlawful detainer, it should appear very
complex as it is riddled with a multitude of torts. But despite its scary volume (over
2,000 pages per record), Hampton summed it up in her Petition and the merits
should have been examined, as it was believed to be of great interest in setting
significant legal precedence and ultimately protecting citizens’ Constitutional
rights.
It was for the foregoing reasons that Hampton has always felt that non­
judicial foreclosures and demurrers thereto are unconstitutional. And in the case of
a UD in a post-foreclosure case, it would appear the statutes are as well, if all the
court can consider is the DOF and its filing in the court by a trustee as being “prima
facie” evidence, despite its inaccuracy or invalidity.

36

The courts should have examined all the evidence supporting the facts, where
there was clear evidence in the Exhibits that PROF was guilty of deceiving the
courts and knew they had acted in a manner not consistent with the law or the
provisions to the DOT. And that evidence should have changed the lower courts'
decisions. By granting Summary Judgment and sustaining the Demurrer; the court
failed its duties regarding procedural due process and abused its discretion.
In summation, the respondent has “unlawfully taken” my home, and the
lower courts have allowed them to do so, in violation of my Constitutional Rights to
due process and the protections of the law, as well as my right to defend
my.property from such “unlawful takings.” It would be a further crime for this
Supreme Court not to grant this Petition and make its decision on the merits and
thus, allow “justice” to prevail. Petitioner knows that based on the merits of her
case, justice must prevail to uphold citizens’ Constitutional rights.
Petitioner believes that this Court should review the merits of this case, and
should conclude that the decision below was erroneous and/or an abuse of
discretion; that irreparable harm has resulted from the decisions below; that PROF
has unlawfully taken my home and property, placing me, an elderly woman, into
homelessness, during a Pandemic, while still attempting to seek “justice” through
this country’s superior court; and that this is of incredible interests to the public at
large, especially to those citizens facing foreclosures and unlawful detainer suits
and particularly to those in non-judicial foreclosure states. This certainly is my hope

37

and prayer where our Constitutional rights to defend our property from “unlawful
takings” will prevail.
Hampton believes that had she not been denied her three-day trial by jury,
she would have prevailed on the merits, with the preponderance of evidence.
Clearly from the facts and merits laid out previously to the courts, there was
wrongdoing every step of the way beginning with the sale of the property, which she
had lived in for ten years prior to purchase, and as evident by the greed of the TBTF
banks (including Countrywide), who had caused a “bubble” to exist, by overpricing
or overestimating the values of property.
Now we are at a juncture where the TBTF banks are anxious to profit once
again from the oncoming flood of foreclosures, especially with the moratorium on
foreclosures, unlawful detainers or evictions lifted, at the expense of innocent
citizens.
This court’s decision herein should be based on what this court deems to be in
the best “interest of justice” and of the citizens of these United States, and their
Constitutional rights to defend their property from unlawful takings and without
due process is a violation of those rights.
Hampton is also certain that given a trial by jury, which “she was deprived
of,” would have proven that PROF was not entitled to Summary Judgment, nor to
possession, and further the foreclosure should have been set aside, as the court’s
jurisprudence calls for. And the court should have found, where the circuit court
previously failed to address, that all the deeds on record should be held “void” or

38

“voidable” and the Deed of Trust (DOT) as “ void ab initioand, as such, no one had
a right to possession or to the remedy to substitute a Trustee and foreclose; and
particularly where the Assignment of the DOT was a nullity, as has been found in
this court in Carpenter v. Longan.
Again, upon a review of the merits and a review of the primary case on
summary judgment before this Court, which should be obvious from my Petitions
for Appeal and the “facts/merits” thereto, the judgments of the lower courts in this
unlawful detainer action were erroneous and/or an abuse of discretion, and a jury
“would have come to but one conclusion when viewing the evidence” contrary to the
court’s decision. Without considering all the evidence submitted and what would
have come before the jury, this should be considered a clear abuse of discretion and
a clear violation of Petitioner’s Constitutional rights. Still further, if the statutes
bar any further consideration of the facts, truths, and merits, then clearly that
would be an obstruction of “justice,” and those statutes should be rewritten and
made constitutional.
Nowhere in my search have I found a case as full of torts involving Predatory
Lending, fraud in assignments, material alteration of the DOT making it void ab
initio, improper assignments and notices of the DOT, wrongful foreclosure, wrong
party foreclosing, violations of HUD requirements, violations of federal HAMP
programs, violations of Fannie Mae Guidelines, violations of Consent Orders with
the OCC/Treasury, and failure to solicit borrowers who qualify for the NMS.

39

